Federal Communications Commission
FY 2012 Financial Statement Audit




                                             TABLE OF CONTENTS



INDEPENDENT AUDITORS’ REPORT .................................................................................................. 4


INDEPENDENT AUDITORS’ REPORT OVER FINANCIAL REPORTING ..................................... 6


INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS ............... 19


MANAGEMENT’S RESPONSE TO AUDITORS’ REPORTS............................................................. 24


FCC PRINCIPAL FINANCIAL STATEMENTS ................................................................................... 26


FCC PRINCIPAL FINANCIAL STATEMENTS FOOTNOTES ......................................................... 31


FCC REQUIRED SUPPLEMENTARY INFORMATION .................................................................... 4
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
                                                                Office of the Managing Director
                                                                                 MEMORANDUM




DATE:           November 15, 2012

TO:             David L. Hunt, Inspector General

FROM:           David B. Robbins, Managing Director and Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditors’ Reports on Internal Control Over
                Financial Reporting and Compliance and Other Matters for Fiscal Year 2012


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditors’
Report on Internal Control Over Financial Reporting and Independent Auditors’ Report on Compliance
and Other Matters. We appreciate the efforts of your team and the independent auditor, KPMG LLP, to
work with the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2012
audit process. This year’s audit opinion was the result of the commitment and professionalism that both
of our offices as well as the independent auditors demonstrated during the FY 2012 audit process. During
the entire audit process, the Commission worked closely with your office and the independent auditors’
team to provide necessary and timely information to facilitate an efficient audit process.

We are pleased that, for the seventh straight year, the independent auditor provided an unqualified
opinion and found that the Commission’s consolidated financial statements for FY 2012 present fairly, in
all material respects, the financial position of the Commission as of September 30, 2012. Seven straight
years of clean audit opinions is an unprecedented accomplishment for the Commission. We are also
pleased that the independent auditor did not identify any material weaknesses in the Commission’s
financial reporting. We have worked very hard to continue strengthening the Commission’s internal
controls and improving its financial management.

Despite these successes, work remains here at the Commission. The FY 2012 audit reports point out two
significant deficiencies related to internal controls, note two instances of non-compliance that still need to
be resolved, and mention one matter that is currently under review. The primary areas of concern relate
to financial system functionality and integration, information technology control weaknesses, and
noncompliance with the Federal Managers’ Financial Integrity Act and the Debt Collection Improvement
Act. We concur with the recommendations made by the independent auditors in their reports.

First, with regard to addressing the significant deficiency for financial system functionality and
integration related to the Commission and its reporting components, the Commission has taken significant
steps throughout FY 2012 to resolve the auditors’ findings and improve the performance of its financial
reporting process. The Commission’s new core financial system was launched in October 2010, and
during FY 2012 the Commission worked to further deploy all the functionality of that system. Also in FY




                                                     24
2012, the Commission continued to work closely with its reporting components in their efforts to
modernize their financial systems.

Second, with respect to the significant deficiency related to information technology control weaknesses,
the Commission is already working to fully assess the auditors’ recommendations and to develop
corrective action plans. Some findings are already in the process of being addressed. During FY 2013,
the Commission will make every effort to complete corrective action for each of the recommendations
associated with these findings to avoid any repeat findings in this area.

Third, with respect to the instance of noncompliance with the Federal Managers’ Financial Integrity Act,
the Commission and its reporting components are committed to implementing financial systems that are
fully integrated, and that provide efficient and effective processing and reporting of accounting
transactions and financial information.

Fourth, with respect to the instance of noncompliance with the Debt Collection and Improvement Act, the
Commission is committed to resolving this issue in FY 2013.

Fifth, the Other Matters reported under review as a possible violation of the Anti-Deficiency Act will be
fully investigated in FY 2013. If any violations of the Anti-Deficiency Act are identified after the
investigation, they will be reported to the President and Congress as required by statute and implementing
guidance.

Finally, we are committed to continually strengthening the internal controls of the Commission and its
reporting components. This commitment includes developing timely, accurate, and useful performance
and financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2013 to resolve the FY 2012 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




David B. Robbins, Managing Director
Office of Managing Director




Mark Stephens, Chief Financial Officer
Office of Managing Director




                                                   25
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2012 and 2011
(Dollars in thousands)

                                                                    FY 2012           FY 2011
ASSETS (Note 2):
 Intragovernmental:
   Fund balance with Treasury (Note 3)                          $       361,739   $       494,340
   Investments (Note 5)                                               6,548,090         5,822,843
   Accounts receivable (Note 6)                                           1,574             1,097
   Other                                                                      -             2,436
 Total intragovernmental                                              6,911,403         6,320,716

 Cash and other monetary assets (Note 4)                               139,322             213,944
 Accounts receivable, net (Note 6)                                     875,088             831,072
 Loans receivable, net (Note 7)                                            335                   4
 General property, plant, and equipment, net                            56,832              60,461
 Other                                                                  13,024              13,053
Total assets                                                    $     7,996,004   $     7,439,250

LIABILITIES (Note 8):
 Intragovernmental:
   Debt (Note 9)                                                $             -   $         50,300
   Other (Note 10)
    Custodial                                                          162,657             206,524
    Other                                                                6,240              13,725
   Total other                                                         168,897             220,249

 Total intragovernmental                                               168,897             270,549

 Accounts payable                                                      110,523              92,976
 Other (Note 10)
  Deferred revenue                                                      62,971              93,053
  Prepaid contributions                                                 85,849              77,362
  Accrued liabilities for Universal Service                            752,423             633,967
  Other                                                                 39,578              35,804
 Total other                                                           940,821             840,186

Total liabilities                                               $     1,220,241   $     1,203,711

 Commitments and Contingencies (Note 11)

NET POSITION
 Unexpended appropriations - other funds                        $         4,251   $        15,105
 Cumulative results of operations - earmarked funds (Note 17)         6,622,985         6,089,350
 Cumulative results of operations - other funds                         148,527           131,084

Total net position                                              $     6,775,763   $     6,235,539
Total liabilities and net position                              $     7,996,004   $     7,439,250


                        The accompanying notes are an integral part of these statements.



                                                           26
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Periods Ended September 30, 2012 and 2011
(Dollars in thousands)

                                                               FY 2012             FY 2011
Program costs (Note 12):
 Broadband:
   Total Gross Cost                                        $       48,428      $        54,536

  Competition and Innovation:
   Total Gross Cost                                             9,739,491             9,099,922

  International:
    Total Gross Cost                                               10,126                6,753

  Consumers:
   Total Gross Cost                                                52,200               46,156

  Public Safety and Homeland Security:
   Total Gross Cost                                                48,123               35,576

  Continual Improvement:
   Total Gross Cost                                                98,582               50,626

Total Program Costs                                        $    9,996,950      $      9,293,569

Cost not assigned to programs:
 Other expenses                                                          (5)                25

Less: earned revenues not attributed to programs                (460,246)             (472,830)
Net cost of operations                                     $    9,536,699      $      8,820,764

                   The accompanying notes are an integral part of these statements.




                                                 27
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Periods Ended September 30, 2012 and 2011
(Dollars in thousands)

                                                               FY 2012                                              FY 2011
                                          Earmarked            All Other                       Earmarked            All Other
                                            Funds               Funds             Total          Funds               Funds            Total

Cumulative Results of Operations:
 Beginning Balances                       $    6,089,350   $      131,084    $    6,220,434    $   6,135,941    $       93,773    $   6,229,714

Budgetary Financing Sources:
 Other adjustments                                     -                -                 -                -             1,041            1,041
 Appropriations used                                   -           20,301            20,301                -            45,266           45,266
 Non-exchange revenue (Note 17)               10,078,791                -        10,078,791        8,771,949                 -        8,771,949

Other Financing Sources (Non Exchange):
 Imputed financing                                     -           15,487            15,487                -            17,457           17,457
 Other                                                 -          (26,802)          (26,802)               -           (24,229)         (24,229)

Total Financing Sources                       10,078,791            8,986        10,087,777        8,771,949            39,535        8,811,484
Net Cost of Operations                         9,545,156           (8,457)        9,536,699        8,818,540             2,224        8,820,764
Net Change                                       533,635           17,443           551,078          (46,591)           37,311           (9,280)

Cumulative Results of Operations               6,622,985          148,527         6,771,512        6,089,350           131,084        6,220,434

Unexpended Appropriations:
 Beginning Balances                                    -           15,105           15,105                 -            21,183          21,183

Budgetary Financing Sources:
 Appropriations received                               -           18,432            18,432                -            40,267           40,267
 Other adjustments                                     -           (8,985)           (8,985)               -            (1,079)          (1,079)
 Appropriations used                                   -          (20,301)          (20,301)               -           (45,266)         (45,266)
 Total Budgetary Financing Sources                     -          (10,854)          (10,854)               -            (6,078)          (6,078)

Total Unexpended Appropriations                        -            4,251            4,251                 -            15,105          15,105

Net Position                              $    6,622,985   $      152,778    $    6,775,763    $   6,089,350    $      146,189    $   6,235,539



                          The accompanying notes are an integral part of these statements.




                                                                   28
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Periods Ended September 30, 2012 and 2011
(Dollars in thousands)

                                                                                                      FY 2012                               FY 2011
                                                                                                          Non-Budgetary                         Non-Budgetary
                                                                                                          Credit Reform                         Credit Reform
                                                                                                            Financing                             Financing
                                                                                          Budgetary          Account            Budgetary          Account
Budgetary Resources:
  Unobligated balance brought forward, Oct 1                                          $      2,727,599 $          37,008    $      2,567,572 $           4,387
  Recoveries of prior year unpaid obligations                                                1,065,292                 -           1,062,160                 -
  Other changes in unobligated balance (+ or -)                                                 (8,987)          (32,724)                (38)                -
  Unobligated balance from prior year budget authority, net                                  3,783,904             4,284           3,629,694             4,387
  Appropriations (discretionary and mandatory)                                              10,060,594                 -           8,785,026                 -
  Borrowing authority (discretionary and mandatory) (Note 14)                                        -               856                   -             2,843
  Spending authority from offsetting collections (discretionary and mandatory)                 445,864             2,016             444,602            37,843
  Total budgetary resources                                                           $     14,290,362 $           7,156    $     12,859,322 $          45,073

Status of Budgetary Resources:
   Obligations incurred (Note 13)                                                     $     11,087,752   $         2,799    $     10,131,723   $         8,065
   Unobligated balance, end of year:
         Apportioned                                                                            14,537             1,005              21,134                 1
         Exempt from apportionment                                                           3,055,396                 -           2,550,957                 -
         Unapportioned                                                                         132,677             3,352             155,508            37,007
   Total unobligated balance, end of year                                                    3,202,610             4,357           2,727,599            37,008
   Total budgetary resources                                                          $     14,290,362   $         7,156    $     12,859,322   $        45,073

Change in Obligated Balance:
  Unpaid obligations, brought forward, Oct 1                                     $           3,416,789 $               -    $      3,736,251 $               -
  Uncollected customer payments from Federal sources, brought forward, Oct 1 (-)                  (382)                -                   -                 -
  Obligated balance, start of year (net), as adjusted                                        3,416,407                 -           3,736,251                 -
  Obligations incurred                                                                      11,087,752             2,799          10,131,723             8,065
  Outlays (gross) (-)                                                                       (9,857,564)           (2,799)         (9,389,025)           (8,065)
  Change in uncollected customer payments from Federal sources (+ or -)                         (5,234)                -                (382)                -
  Recoveries of prior year unpaid obligations (-)                                           (1,065,292)                -          (1,062,160)                -
  Obligated balance, end of year
       Unpaid obligations, end of year (gross)                                               3,581,685                 -           3,416,789                 -
       Uncollected customer payments from Federal sources, end of year (-)                      (5,616)                -                (382)                -
  Obligated balance, end of year (net)                                           $           3,576,069 $               -    $      3,416,407 $               -

Budget Authority and Outlays, Net:
  Budgetary authority, gross (discretionary and mandatory)                            $     10,506,458 $           2,872    $      9,229,628 $          40,686
  Actual offsetting collections (discretionary and mandatory) (-)                             (445,504)          (20,448)           (450,467)          (78,111)
  Change in uncollected customer payments from Federal sources                                  (5,234)                -                (382)                -
    (discretionary and mandatory) (+ or -)
  Budgetary authority, net (discretionary and mandatory)                              $     10,055,720   $       (17,576)   $      8,778,779   $       (37,425)

   Outlays, gross (discretionary and mandatory)                                       $      9,857,564 $           2,799    $      9,389,025 $           8,065
   Actual offsetting collections (discretionary and mandatory) (-)                            (445,504)          (20,448)           (450,467)          (78,111)
   Outlays, net (discretionary and mandatory)                                                9,412,060           (17,649)          8,938,558           (70,046)
   Distributed offsetting receipts (-)                                                         (54,772)                -             (59,041)                -
   Agency outlays, net (discretionary and mandatory)                                  $      9,357,288 $         (17,649)   $      8,879,517 $         (70,046)




                                The accompanying notes are an integral part of these statements.




                                                                                 29
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Periods Ended September 30, 2012 and 2011
(Dollars in thousands)

                                                                   FY 2012            FY 2011
Revenue Activity:
 Sources of Cash Collections:
    Spectrum Auctions                                          $      38,477     $       66,871
    Fines and Penalties                                                8,656             43,061
    Credit Reform                                                      1,761              7,831
 Total Cash Collections                                               48,894            117,763

  Accrual Adjustments (+/-)
     Spectrum Auctions                                                 1,560                  4
     Fines and Penalties                                               1,096             (1,751)
  Total Accrual Adjustments                                            2,656             (1,747)

  Total Custodial Revenue                                             51,550            116,016

Disposition of Collections:
 Transferred to Others:
     U.S. Treasury                                                   (10,417)           (50,892)

  (Increase)/Decrease in Amounts Yet to be Transferred (+/-)          43,867             19,876
  Retained by the Reporting Entity                                   (85,000)           (85,000)

  Total Disposition of Collections                                   (51,550)          (116,016)

Net Custodial Activity                                         $             -   $              -



                   The accompanying notes are an integral part of these statements.




                                                  30
NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011
(DOLLARS IN THOUSANDS UNLESS OTHERWISE STATED)

Note 1 - Summary of Significant Accounting Policies

A. Reporting Entity

The Federal Communications Commission (Commission) is an independent United States Government
agency, established by the Communications Act (Act) of 1934, as amended. The Commission is charged
with regulating interstate and international communications by radio, television, wire, satellite, and cable.
The Commission’s jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions.
Five commissioners direct the Commission; they are appointed by the President of the United States and
confirmed by the Senate for five-year terms, except when filling an unexpired term or serving in holdover
status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

B. Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. generally accepted accounting principles (GAAP) and
the form and content for Federal entity financial statements specified by the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements.

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

C. Fund Balance with Treasury

Funds with the U.S. Department of the Treasury (Treasury) primarily represent appropriated, revolving,
and deposit funds. The Commission may use the appropriated and revolving funds to finance
expenditures, depending on budgetary availability. The deposit accounts are used to hold funds
temporarily until they can be properly disbursed or distributed.

D. Cash and Other Monetary Assets

Cash and Other Monetary Assets represent cash on deposit and money market funds at several
commercial banks.        Accounts are maintained by the Universal Service Administrative Company
(USAC), Rolka Loube Saltzer Associates, LLC (RLSA), and Welch LLP, serving as administrators
and/or billing and collection agents for their respective programs. The accounts bear the names of those
entities, as well as the Commission or the fund for which they serve as administrator and/or billing and
collection agent. Cash on deposit is collateralized by the Federal Reserve.




                                                     31
Note 1 - Summary of Significant Accounting Policies (continued)

D. Cash and Other Monetary Assets (continued)

As of July 1, 2011, RLSA became the new administrator for the TRS fund. Prior to July 1, 2011, the TRS
fund was administered by the National Exchange Carrier Association (NECA).

E. Investments

Investments are reported net of the unamortized premium or discount. All investments are in Treasury
securities.

F. Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other Federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

G. Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. The
present value is calculated as the estimated cash outflows over the life of the loans, less the present value
of the estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a
similar maturity term. Direct loans are reported net of an allowance for subsidy at the present value.

H. Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. All PP&E with
an initial acquisition cost of $25 or more and all internally developed software with a development cost of
$50 or more, and with an estimated useful life of two years or greater, are capitalized. Bulk purchases of
similar items, individually worth less than $25 but collectively worth more than $250, are also capitalized
using the same equipment categories and useful lives as capital acquisitions. PP&E are depreciated on a
straight-line basis over the estimated useful lives of the items. The useful lives used are: forty years for
buildings, seven years for non-computer equipment, five years for computers and vehicles, and three
years for software. Neither land, including permanent improvements, nor software in development is
depreciated. Normal maintenance and repair costs are expensed as incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.

I. Other Assets

Other Assets – Intragovernmental represent funds related to Auction #73 licenses that have not been
granted.   These funds were transferred to the National Telecommunications and Information
Administration (NTIA) in FY 2008 as required by the Digital Television Transition and Public Safety Act
of 2005.




                                                     32
Note 1 - Summary of Significant Accounting Policies (continued)

I. Other Assets (continued)

Other Assets with the public represent the balance of transfers less expenses made by the USF to the
USAC to fund administrative costs in advance. Advances are drawn down as expenses are incurred.

J. Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

K. Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The USF and NANP collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

L. Debt

This account represents amounts due to the U.S. Treasury’s Bureau of Public Debt (BPD) to support the
spectrum auction loans program. Borrowings from BPD are determined based on subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BPD at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

M. Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portions of future benefits earned by Federal
employees, including pensions, other retirement benefits, and other post-employment benefits. The
Office of Personnel Management (OPM) administers these benefits. The Commission does not recognize
any liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment
benefits. The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and
recognizes imputed financing related to these costs on the Statement of Changes in Net Position.

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS) or the Federal Employee
Retirement System (FERS). Under CSRS, the Commission makes matching contributions equal to seven
percent of basic pay. For FERS employees, the Commission contributes the employer’s matching share
for Social Security, contributes an amount equal to one percent of employee pay to a savings plan, and



                                                    33
Note 1 - Summary of Significant Accounting Policies (continued)

M. Retirement Plans and Other Benefits (continued)

matches up to an additional four percent of pay. Most employees hired after December 31, 1983, are
covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined by using historical benefit payment patterns
related to a specific incurred period to predict the ultimate payment related to that period. The
Department of Labor (DOL) determines no actuarial liability for the Commission due to the immateriality
to the Federal Government as a whole.

The unfunded Federal Employees’ Compensation Act (FECA) liability covers unemployment
compensation and medical benefits. The calculation takes the amount of benefit payments over the last
nine to twelve quarters and then calculates the annual average of payments. The compensation and
medical payments can be found in the chargeback reports that are issued by DOL.

N. Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Revenue and Other Financing Sources

Regulatory Fee Offsetting Collections (Exchange) – The Omnibus Budget Reconciliation Act of 1993
directed the Commission to assess and collect regulatory fees to recover the costs incurred in carrying out
certain provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by Congress,
incurred in carrying out its strategic goals of Broadband, Competition and Innovation, International,
Consumers, Public Safety and Homeland Security, and Continual Improvement. These fees were
established by congressional authority, and consistent with OMB Circular No. A-25 revised, User
Charges, the Commission did not determine the full costs associated with its regulatory activity in
establishing regulatory fees. Since 1993, Congress has annually reviewed the regulatory fee collection
requirements of the Commission and established the total fee levels to be collected. Fees collected up to
the level established by Congress are applied against the Commission’s annual appropriation at the close
of each fiscal year. The regulatory fee levels of $339,844 for FY 2012 and $335,794 for FY 2011 were
achieved. The Commission collected $4,874 above the required regulatory level in FY 2012 and $6,247
in FY 2011. The total cumulative amount collected above the required regulatory level since 1997 was
$71,044 at September 30, 2012, which is temporarily precluded from obligation.




                                                    34
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

Competitive Bidding System Offsetting Collections (Exchange) – One of the Commission’s primary
functions is managing the spectrum auction program. Proceeds from the auctions are initially remitted to
the Commission and are later transferred to the U.S. Treasury, net of anticipated auction related costs
(under 47 U.S.C. § 309, the Commission may retain a portion of the spectrum auction proceeds to offset
the cost of performing the auction function). Collections used to offset the cost of performing auctions-
related activity are capped at $85,000 in FY 2012 and FY 2011.

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined in the market place at the time of auction. The Commission
recognized total custodial revenue related to spectrum auctions net of accrual adjustments of $40,036 in
FY 2012 and $66,875 in FY 2011.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to impose and
collect application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services it provides to communications entities over which the
Commission has jurisdiction. The Commission amends its Schedule of Application Fees (47 C.F.R. §
1.1102 et seq.) to adjust the fees for processing applications and other filings. Section 8(b) of the Act, as
amended, requires the Commission to review and adjust its application fees every two years. The
adjusted or increased fees reflect the net change in the Consumer Price Index for all Urban Consumers,
calculated over a specific period of time. Application fees are deposited in the Treasury and are not
available for the Commission’s use. Application fee revenue totaled $24,804 in FY 2012 and $23,892 in
FY 2011.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. In FY 2012,
the Commission executed agreements totaling $661. The Commission also returned $3,621 in
unobligated funds from the American Recovery and Reinvestment Act for Broadband Technology
Opportunities Program, which ended in FY 2010, to the appropriate Federal agencies. In FY 2011, the
Commission executed agreements totaling $3,893 and no unobligated funds were returned in FY 2011.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expense
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation of $339,844 for FY
2012 and $335,794 for FY 2011 is fully funded by regulatory fee collections.

Subsidy Estimates and Reestimates (Financing Source) – The Commission receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. The Commission received an appropriation for an upward subsidy of $18,432 in FY 2012
and $40,267 in FY 2011. These appropriations are available until used.




                                                     35
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated and earmarked receipts and are accounted for as a budgetary financing source.

Allocation of Exchange Revenues
The Commission reports the entire balance of exchange revenue on line "Less: earned revenues not
attributed to programs” since there is no direct relationship between earned revenues and specific
programs.

Reprogramming
In FY 2012, the Commission received approval to reprogram $12,100 of prior year obligations that were
deobligated to enable the Commission to implement certain initiatives. The initiatives included $10,000
for cyber security and $2,100 to implement the incentive spectrum auctions provisions included in the
Middle Class Tax Relief and Job Creation Act of 2012. In FY 2011, the Commission did not submit any
requests for reprogramming.

P. Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and Billing and Collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are the Universal Service Administrative Company (USAC), which is both the
administrator and B&C agent for the four Universal Service Fund (USF) support mechanisms; Rolka
Loube Saltzer Associates (RLSA), which is both the administrator and B&C agent for the
Telecommunications Relay Service (TRS) Fund; Neustar, which is the administrator for the North
American Numbering Plan (NANP) Fund; and Welch LLP, which is the B&C agent for the NANP Fund.
As of July 1, 2011, RLSA became the new administrator for the TRS Fund. Prior to July 1, 2011, the
TRS Fund was administered by the National Exchange Carrier Association (NECA).

The Commission approves the administrative costs paid to these entities from the respective funds that
they manage. The administrative costs cover expenses such as the salaries and benefits for the employees
dedicated to managing the funds; rent and utilities for office space used; accounting and other financial
reporting related services; and other management activities. All related party balances for the years ended
September 30, 2012 and 2011 are listed below:

Administrative Fees:
                            USF              TRS              NANP             Total
    FY 2012             $   105,358      $     1,094      $     5,409      $   111,861
    FY 2011             $   102,118      $     2,082      $     4,587      $   108,787




                                                    36
Note 1 - Summary of Significant Accounting Policies (continued)

Q. Net Position

Net Position is the residual difference between assets and liabilities, and is comprised of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net difference since the inception of the
Commission of (1) expenses and losses and (2) financing sources including appropriations, revenues, and
gains.

R. Mobility Fund Phase I Auction

On September 27, 2012, the Commission completed the Mobility Fund Phase I Auction. In this auction,
designated as Auction 901, there were a total of 33 winning bidders. The winning bidders have a binding
obligation to file a post-auction long-form application by the applicable deadline and consistent with other
requirements of the long-form application process. After the deadline, the Commission will issue a public
notice identifying the winning bids that are authorized to receive support. The Mobility Fund Phase I
Auction did not have any financial impact in FY 2012.

Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2012 and 2011:

                                                        FY 2012              FY 2011
 Intragovernmental:
   Fund Balance with Treasury                       $     179,007        $     266,981
   Accounts Receivable, Net                                   439                1,081
   Other                                                        -                2,436
 Total Intragovernmental                                  179,446              270,498

 Accounts Receivable, Net                                   21,565               19,304
 Total Non-entity Assets                                   201,011              289,802
 Total Entity Assets                                     7,794,993            7,149,448
 Total Assets                                       $    7,996,004       $    7,439,250


Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $166,489 in FY 2012 and $238,425 in FY 2011. Non-entity
Cash and Other Monetary Assets also consist of deposits made by spectrum auction bidders that are held
outside of Treasury. Receivables considered non-entity are for regulatory fees, application fees, fines and
forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
charges.




                                                    37
Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury (FBWT) as of September 30, 2012 and 2011:

                                         Appropriated         Revolving
FY 2012
                                           Funds               Funds       Deposit Funds        Total
Unobligated Balance
 Available                               $      15,814    $        4,357   $            -   $     20,171
 Unavailable                                    78,777                 -                -         78,777
Obligated Balance not yet Disbursed             83,784                 -                -         83,784
Non-Budgetary FBWT                                   -                 -          179,007        179,007
Total                                    $     178,375    $        4,357   $      179,007   $    361,739

FY 2011
Unobligated Balance
 Available                               $      28,782    $       37,008   $            -   $     65,790
 Unavailable                                    80,990                 -                -         80,990
Obligated Balance not yet Disbursed             80,579                 -                -         80,579
Non-Budgetary FBWT                                   -                 -          266,981        266,981
Total                                    $     190,351    $       37,008   $      266,981   $    494,340

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the credit reform program account, and the no-year accounts used to
carry over spectrum auction funds, offsetting collections, excess regulatory fees, and the Office of
Inspector General USF funds.

Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are not available for use by the Commission unless they are properly identified or reclassified as
Commission funds. Otherwise, these funds are returned to the depositor or transferred to the U.S.
Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2012 and 2011:

                                              FY 2012                   FY 2011
Cash and Other Monetary Assets               $ 139,322                $ 213,944

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested.

Effective February 17, 2012, interest earned on third-party deposits is transferred to the Treasury’s
General Fund. Prior to February 17, 2012, interest earned on third-party deposits was transferred to the
Telecommunications Development Fund.




                                                    38
Note 4 – Cash and Other Monetary Assets (continued)

In FY 2012, Cash and Other Monetary Assets included $136,475 in USF contributions and related
accrued interest being held for distribution, and $2,847 in NANP deposits and related accrued interest. In
FY 2011, Cash and Other Monetary Assets included $210,948 in USF contributions and related accrued
interest being held for distribution, and $2,996 in NANP deposits and related accrued interest.

Note 5 - Investments

The following summarizes Investments as of September 30, 2012 and 2011:

                                                                      Amortized                                      Market
                                     Purchase     Amortization        (Premium)    Interest    Investments,          Value
FY 2012                                Cost         Method             Discount   Receivable       Net             Disclosures
Intragovernmental Securities:
 Marketable Securities
 Treasury Bills                  $    2,269,876       EI          $           233 $        -   $   2,270,109   $     2,270,170
 Treasury Notes                       4,274,042       EI                   (4,086)     8,025       4,277,981         4,277,414
 Total                           $    6,543,918                   $        (3,853) $   8,025   $   6,548,090   $     6,547,584

FY 2011
Intragovernmental Securities:
 Marketable Securities
 Treasury Bills                  $    1,462,490       EI          $            36 $        -   $   1,462,526   $     1,462,532
 Treasury Notes                       4,358,452       EI                   (4,735)     6,600       4,360,317         4,371,790
 Total                           $    5,820,942                   $        (4,699) $   6,600   $   5,822,843   $     5,834,322

EI - Effective Interest Method


All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of earmarked funds in Note 17.

The cash receipts collected from the public for the USF are used to purchase federal securities. U.S.
Treasury securities are an asset to the USF and a liability to the U.S. Treasury. Because the USF and the
U.S. Treasury are both parts of the Government, these assets and liabilities offset each other from the
standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.

Treasury securities provide the USF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the USF requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the Government finances all other expenditures.




                                                             39
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2012 and 2011:

                                                 Intragovernmental                     Public                             Total
FY 2012
 Gross Accounts Receivable                   $                    1,574            $         1,617,826          $            1,619,400
 Allowance for Doubtful Accounts                                      -                       (742,738)                       (742,738)
Net Accounts Receivable                      $                    1,574         $              875,088          $              876,662

FY 2011
 Gross Accounts Receivable                   $                    1,097            $         1,431,499          $            1,432,596
 Allowance for Doubtful Accounts                                      -                       (600,427)                       (600,427)
Net Accounts Receivable                      $                    1,097         $              831,072          $              832,169


Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion is determined by applying predetermined percentages against the respective date the receivable
was established. The current formula for the Commission’s allowance is 25% for receivables 91-180
days outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable. The general allowance is calculated by multiplying the receivable amounts
by the percentage of the estimated uncollectible amount as determined by a review of historical collection
rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of forfeiture, subject to final
determination. The NAL receivables are included under the Forfeitures category in the table below.
While these receivables are included on the Treasury Report on Receivables at the request of Treasury,
the ability to collect these receivables is not determined until a final judgment is issued. A 100%
allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD) for
Schools and Libraries audit receivables are subject to appeal and are not considered final until the appeals
period has lapsed or a final determination has been issued. The COMAD audit receivables for Schools
and Libraries have a 96% allowance in FY 2012 and 93% allowance in FY 2011.

                                                        FY 2012                                               FY 2011
                                    Accounts                                               Accounts
                                    Receivable          Allowance            Net           Receivable         Allowance           Net
USF                             $     1,289,562     $      (442,926)     $   846,636   $     1,065,218    $      (268,724)   $    796,494
COMAD - Schools and Libraries           148,896            (142,345)           6,551           200,342           (185,717)         14,625
Regulatory Fees                          38,369             (28,147)          10,222            35,740            (24,194)         11,546
Spectrum Auction                         24,194             (22,630)           1,564            21,258            (21,254)              4
Forfeitures                             100,549             (97,849)           2,700            95,102            (88,399)          6,703
Other                                    17,830              (8,841)           8,989            14,936            (12,139)          2,797
Total                           $     1,619,400     $      (742,738)     $   876,662   $     1,432,596    $      (600,427)   $    832,169




                                                                    40
Note 7 – Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they became due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007.

As required under the FCRA of 1990, as amended, the Commission coordinates with OMB in developing
estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates and
reestimates. The most recent subsidy reestimate was completed as of September 30, 2012. The
reestimate resulted in a net downward adjustment, including interest on the reestimate, of $1,473.

Direct Loans
                       Loans                                          Allowance for      Value of
                       Receivable      Interest          Other        Subsidy Cost       Assets Related
Loan Program           Gross           Receivable        Receivable   (Present Value)    to Direct Loans
Spectrum Auctions:
 FY 2012               $ 111,074       $ 7,883           $ 857         $ (119,479)           $ 335
 FY 2011               $ 130,533       $ 8,932           $ 1,195       $ (140,656)           $   4

Interest accrued on bankrupt and defaulted loans totaled $7,883 in FY 2012 and $8,932 in FY 2011.

Other Receivables is composed of outstanding late fees on the loans receivable.

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2012 and FY 2011.




                                                    41
Note 7 – Loans Receivable, Net (continued)

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:

                                                Interest Rate        Technical         Total
 Loan Program              Modifications        Reestimates          Reestimates       Reestimates
 Spectrum Auctions:
   FY 2012 (Net)           $           -        $           -          $ (1,473)        $ (1,473)
   FY 2011 (Net)           $           -        $           -          $ 17,629         $ 17,629

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                 FY 2012           FY 2011
 Beginning Balance of the Subsidy Cost Allowance                $ 140,656          $ 166,260

 Adjustments:
   Loans written off                                                (20,599)           (42,711)
   Other                                                                 810                  -
   Subsidy allowance amortization                                         85              (522)
 Ending balance before reestimates                                  120,952            123,027
 Subsidy reestimates:
   Technical/default reestimate                                      (1,473)          17,629
 Ending balance of the subsidy cost allowance                   $   119,479        $ 140,656

 Administrative Expense – Spectrum Auctions                     $     1,837        $      4,884

Note 8 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2012
and 2011:

 Intragovernmental:                                                     FY 2012             FY 2011
    Other:
        FECA Liability                                                  $        342        $          482
        GSA Real Estate Taxes                                                  1,922                 2,357
 Other:
        Unfunded Leave                                                       20,452              20,108
        Accrued Liabilities for Universal Service                           752,423             633,967
 Total liabilities not covered by budgetary resources                       775,139             656,914
 Total liabilities covered by budgetary resources                           445,102             546,797
 Total Liabilities                                                      $ 1,220,241         $ 1,203,711




                                                    42
Note 9 - Debt
                               FY 2011                          FY 2011                       FY 2012
                              Beginning        Net               Ending         Net            Ending
                               Balance      Borrowing           Balance      Borrowing        Balance
 Debt to the Treasury         $ 87,726      $ (37,426)          $ 50,300     $ (50,300)         $   -

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.

Note 10 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2012 and 2011:

FY 2012                                       Non-Current               Current               Total
Intragovernmental
    Custodial Liability                     $               -       $      162,657        $    162,657
    Other                                                   -                6,240               6,240
Total Intragovernmental                     $               -       $      168,897        $    168,897

Deferred Revenue                            $       33,392          $       29,579        $     62,971
Prepaid Contributions                                    -                  85,849              85,849
Accrued Liabilities for Universal Service                -                 752,423             752,423
Other                                                    -                  39,578              39,578
Total Other Public                          $       33,392          $      907,429        $    940,821

FY 2011                                       Non-Current               Current               Total
Intragovernmental
    Custodial Liability                     $               -       $      206,524        $    206,524
    Other                                                   -               13,725              13,725
Total Intragovernmental                     $               -       $      220,249        $    220,249

Deferred Revenue                            $       30,144          $       62,909        $     93,053
Prepaid Contributions                                    -                  77,362              77,362
Accrued Liabilities for Universal Service                -                 633,967             633,967
Other                                                    -                  35,804              35,804
Total Other Public                          $       30,144          $      810,042        $    840,186


The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees,
and interest revenue on auction deposits. Deferred revenue represents regulatory fees, spectrum auction
revenue, or contributor payments that have been received but not earned by the Commission.




                                                  43
Note 10 - Other Liabilities (continued)

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received but not billed, and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.

Note 11 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the Schools and Libraries, High Cost, and Low
Income programs which might result in future proceedings or actions. Similarly the Commission, RLSA,
and the Department of Justice are investigating several cases related to the TRS funds. The complexity of
these future actions precludes management from estimating the total amount of recovery that may result.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, there is one bankruptcy proceeding related to the loan portfolio. In the
opinion of Commission management, the ultimate resolution of proceedings, actions, and claims will not
materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to cancelled authority and believes it has no
outstanding commitments requiring future resources other than those as disclosed in Note 8. In addition,
there are certain operating leases that may contain provisions regarding contract termination costs upon
early contract termination.

In September 2007, a grievance was filed with the Commission under the Federal Labor Standards Act
alleging that certain Commission bargaining unit employees were not sufficiently compensated for
overtime work. Management in consultation with legal counsel has determined that it is "probable" that
some issues presented by this pending grievance will result in payments to some employees, but an
estimate of the range of the payments cannot be reasonably measured at this time.




                                                   44
Note 12 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent goods and services purchased by the Commission from other
Federal agencies.

FY 2012
Program Costs                         Intragovernmental             Public                 Total
Broadband                             $          12,417 $                 36,011    $              48,428
Competition and Innovation                       48,435               9,691,056                 9,739,491
International                                     2,597                    7,529                   10,126
Consumers                                        13,385                   38,815                   52,200
Public Safety and Homeland Security              12,339                   35,784                   48,123
Continual Improvement                            25,277                   73,305                   98,582
Total                                 $         114,450 $             9,882,500     $           9,996,950

Total Earned Revenue                  $               6,065   $           454,181   $            460,246

FY 2011
Program Costs                         Intragovernmental             Public                 Total
Broadband                             $          14,595 $                 39,941    $              54,536
Competition and Innovation                       74,057               9,025,865                 9,099,922
International                                     1,807                    4,946                    6,753
Consumers                                        12,353                   33,803                   46,156
Public Safety and Homeland Security               9,521                   26,055                   35,576
Continual Improvement                            13,549                   37,077                   50,626
Total                                 $         125,882 $             9,167,687     $           9,293,569

Total Earned Revenue                  $            18,624     $           454,206   $            472,830


Note 13 - Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

The following summarizes Apportionment Categories of Obligations Incurred for the years ended
September 30, 2012 and 2011:

                                                  FY 2012                                 FY 2011
                                                                Non-                                  Non-
                                          Budgetary           Budgetary         Budgetary           Budgetary
 Direct:
    Category A                            $ 1,148,054          $     -         $ 1,098,682           $     -
    Category B                                 33,934            2,799              49,304             8,065
    Exempt from Apportionment               9,896,697                -           8,979,531                 -
 Total Direct                             $11,078,685          $ 2,799         $10,127,517           $ 8,065

 Reimbursable:
   Category A                              $    9,067          $      -        $        4,206        $      -

Category A – Apportioned by Quarter
Category B – Apportioned by Purpose




                                                      45
Note 14 - Terms of Borrowing Authority Used

                                         Borrowing Authority Used
 Maturity Dates:                          FY 2012           FY 2011
   September 30, 2012                      $ 856            $       -
   September 30, 2013                            -            50,449
 Total Borrowing Authority Used            $ 856            $ 50,449

In FY 2012, the Commission used $856 in borrowing authority to fund the FY 2011 Credit Reform
Downward Subsidy. The Commission used $50,449 in FY 2011 borrowing authority to extend the
maturity dates of the debt owed to BPD. In FY 2012, the entire debt was repaid.

Note 15 – Legal Arrangements Affecting Use of Unobligated Balances

Pursuant to Public Law 111-8, offsetting collections received in excess of $339,844 in FY 2012 shall not
be available for obligation. Also, any offsetting collections received in prior years that otherwise become
available on or after October 1, 2011, are not available for obligation.

Note 16 - Explanation of Differences Between the Statement of Budgetary Resources (SBR) and the
Budget of the U.S. Government

The only material difference between the Combined Statement of Budgetary Resources (SBR) for FY
2011 and the amounts presented in the 2013 President’s Budget was the presentation of the unapportioned
balance of $176,000. OMB Circular No. A-136, Financial Reporting Requirements, requires all
unapportioned balances to be reflected as “Unobligated balance – Exempt from Apportionment” and
“Unapportioned” on the SBR. The President’s Budget determines availability based on the fund type and
legislation, and places the unapportioned balance for the Commission, including USF, on line “Unexpired
unobligated balance, end of the year.”

The FY 2014 Budget of the United States Government (President’s Budget) with actual numbers for FY
2012 has not been published. Pursuant to 31 USC § 1105, the Budget of the United States Government
will be released the first Monday in February, and will be available at the following website:
http:/www.whitehouse.gov/omb.

Note 17 – Earmarked Funds

U.S. telecommunications companies are obligated to make contributions to the USF and the TRS. These
contributions are accounted for in the Budget of the U.S. Government as the “Universal Service Fund.”
The Commission currently recognizes the contributions collected under the USF Program as non-
exchange revenue on its Statement of Changes in Net Position, and the related disbursements as program
expenses on the Statement of Net Cost.




                                                    46
Note 17 – Earmarked Funds (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2012 and 2011:

Balance Sheet                                      FY 2012             FY 2011
ASSETS
Investments                                    $    6,548,090      $    5,822,843
Cash and other monetary assets                        136,475             210,948
Accounts receivable, net                              866,813             842,768
General property, plant, and equipment, net             2,678               6,330
Other assets                                           13,024              13,024
  Total assets                                 $    7,567,080      $    6,895,913

LIABILITIES
Accounts payable                               $      98,743       $      82,113
Deferred revenue                                       7,149              13,161
Prepaid contributions                                 85,780              77,322
Accrued liabilities                                  752,423             633,967
Total liabilities                              $     944,095       $     806,563

Cumulative results of operations               $    6,622,985      $    6,089,350

  Total liabilities and net position           $    7,567,080      $    6,895,913

Statement of Net Cost
Net cost of operations                         $    9,545,156      $    8,818,540

Statement of Changes in Net Position
Net position beginning of period               $    6,089,350      $    6,135,941

Non-exchange revenue                               10,078,791           8,771,949
Net cost of operations                              9,545,156           8,818,540
Change in net position                                533,635             (46,591)

Net position end of period                     $    6,622,985      $    6,089,350


Note 18 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders totaled $3,463,190 as of September
30, 2012 and $3,314,084 as of September 30, 2011.




                                                    47
Note 19 – Reconciliation of Net Cost of Operations (Proprietary) to Budget (Formerly the
Statement of Financing)

As of September 30, 2012 and 2011:
                                                                                             FY 2012            FY 2011
Budgetary Resources Obligated:
 Obligations incurred                                                                    $    11,090,551    $    10,139,788
 Less: spending authority from offsetting collections and recoveries                           1,536,478          1,591,120
 Obligations net of offsetting collections and recoveries                                      9,554,073          8,548,668
 Less: offsetting receipts                                                                        54,772             59,041
 Net obligations                                                                               9,499,301          8,489,627
Other Resources                                                                                  (11,315)            (6,772)
Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Undelivered Orders                                                                   (149,106)          271,372
 Resources that fund expenses recognized in prior periods                                            -                (691)
 Budgetary offsetting collections and receipts that do not affect net cost of operations          75,220           137,152
 Resources that finance the acquisition of assets                                                (16,182)          (13,089)
 Other                                                                                            37,200           145,253
Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:
 Increase in annual leave liability                                                                 344                (583)
 Upward/Downward reestimates of credit subsidy (+/-)                                             (1,473)             17,629
 Increase in exchange revenue receivable from the public                                          5,277               3,872
 Depreciation and amortization                                                                   19,810              17,797
 Other (+/-)                                                                                     77,623            (240,803)

Net Cost of Operations                                                                  $      9,536,699    $     8,820,764


Note 20 – Comparability of the Financial Statements

Statement of Budgetary Resources
The presentation used for the Statement of Budgetary Resources (SBR) prior to FY 2012 has been revised
to reflect a new format required pursuant to the OMB Circular No. A-136, Financial Reporting
Requirements. OMB Circular No. A-136 requires agencies to present both the FY 2012 and 2011 SBR in
the same format. Accordingly, certain reclassifications were made to the previously issued FY 2011 SBR
to conform to the new format.




                                                               48
REQUIRED SUPPLEMENTARY INFORMATION
REQUIRED SUPPLEMENTARY INFORMATION – STATEMENT OF BUDGETARY
RESOURCES
For the Year Ended September 30, 2012
(Dollars in thousands)

OMB Circular No. A-136, Financial Reporting Requirements, requires additional disclosure of an entity's
budgetary information by major budgetary accounts if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. Major budgetary accounts of the Commission
include Salaries and Expenses (S&E), Credit, Auctions, and USF. S&E represents general salaries and
expenses of the Commission. Credit reflects the program and financing accounts related to the direct loan
program. Auctions include salaries and expenses of the spectrum auction program. USF includes
Universal Service and Telecommunications Relay Service Funds.

Reflected in the chart below are the major budgetary accounts of the Commission that are aggregated and
presented in the September 30, 2012 Combined Statement of Budgetary Resources.

STATEMENT OF BUDGETARY RESOURCES
FY 2012                                                                               S&E           Credit           Auctions         USF            Total
Budgetary Resources:
  Unobligated balance brought forward, Oct 1                                     $      37,051 $       41,497 $           1,603 $      2,684,456 $    2,764,607
  Recoveries of prior year unpaid obligations                                            5,411            411               979        1,058,491      1,065,292
  Other changes in unobligated balance (+ or -)                                         (6,824)       (32,724)           (2,163)               -        (41,711)
  Unobligated balance from prior year budget authority, net                             35,638          9,184               419        3,742,947      3,788,188
  Appropriations (discretionary and mandatory)                                               -         18,432                 -       10,042,162     10,060,594
  Borrowing authority (discretionary and mandatory) (Note 14)                                -            856                 -                -            856
  Spending authority from offsetting collections (discretionary and mandatory)         345,933          2,016            85,246           14,685        447,880
  Total budgetary resources                                                      $     381,571 $       30,488 $          85,665 $     13,799,794 $   14,297,518
Status of Budgetary Resources:
   Obligations incurred                                                          $     363,153 $       22,207 $          85,186 $     10,620,005 $   11,090,551
   Unobligated balance, end of year:
        Apportioned                                                                     11,039          4,501                 2                -         15,542
        Exempt from apportionment                                                            -              -                 -        3,055,396      3,055,396
        Unapportioned                                                                    7,379          3,780               477          124,393        136,029
   Total unobligated balance, end of year                                               18,418          8,281               479        3,179,789      3,206,967
   Total budgetary resources                                                     $     381,571 $       30,488 $          85,665 $     13,799,794 $   14,297,518
Change in Obligated Balance:
  Unpaid obligations, brought forward, Oct 1                                     $      55,594 $        1,572 $           24,255 $     3,335,368 $    3,416,789
  Uncollected customer payments from Federal sources, brought forward, Oct 1 (-)          (382)             -                  -               -           (382)
  Obligated balance, start of year (net), as adjusted                                   55,212          1,572             24,255       3,335,368      3,416,407
  Obligations incurred                                                                 363,154         22,206             85,186      10,620,005     11,090,551
  Outlays (gross) (-)                                                                 (346,753)       (23,099)           (85,188)     (9,405,323)    (9,860,363)
  Change in uncollected customer payments from Federal sources (+ or -)                 (5,234)             -                  -               -         (5,234)
  Recoveries of prior year unpaid obligations (-)                                       (5,411)          (411)              (979)     (1,058,491)    (1,065,292)
  Obligated balance, end of year
       Unpaid obligations, end of year (gross)                                         66,584                268         23,274       3,491,559       3,581,685
       Uncollected customer payments from Federal sources, end of year (-)             (5,616)                 -              -               -          (5,616)
  Obligated balance, end of year (net)                                           $     60,968 $              268 $       23,274 $     3,491,559 $     3,576,069
Budget Authority and Outlays, Net:
  Budgetary authority, gross (discretionary and mandatory)                       $     345,934 $       21,304 $           85,245 $    10,056,847 $   10,509,330
  Actual offsetting collections (discretionary and mandatory) (-)                     (345,574)       (20,448)           (85,245)        (14,685)      (465,952)
  Change in uncollected customer payments from Federal sources                          (5,234)             -                  -               -         (5,234)
   (discretionary and mandatory) (+ or -)
  Budgetary authority, net (discretionary and mandatory)                         $      (4,874) $            856 $              - $   10,042,162 $   10,038,144
  Outlays, gross (discretionary and mandatory)                                         346,753         23,099             85,188       9,405,323      9,860,363
  Actual offsetting collections (discretionary and mandatory) (-)                     (345,574)       (20,448)           (85,245)        (14,685)      (465,952)
  Outlays, net (discretionary and mandatory)                                             1,179          2,651                (57)      9,390,638      9,394,411
  Distributed offsetting receipts (-)                                                  (26,900)             -                  -         (27,872)       (54,772)
  Agency outlays, net (discretionary and mandatory)                              $     (25,721) $       2,651 $              (57) $    9,362,766 $    9,339,639




                                                                                 49
